No.

Tfxx iljr
GInuri nf tip? QIttttrh states

Paul A. Heinrich,
Petitioner,
v.
United States of America,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Paul A. Heinrich, pro se
P.O. Box 1094
Star Lake, Wisconsin 54561
(630)232-1116

i
QUESTION PRESENTED
1. Whether, in light of Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847
(1988), the provisions of 28 USC §455, Disqualification of Justice, Judge, or Magistrate Judge,
and/or Due Process require relief from judgment under a Rule 60(b) Motion for a New Trial
when the discovery of judicial prejudice occurs post-trial and post-appeal and where it is the
overall court record, itself, that proves judicial prejudice.
2. Whether purely punitive sanctions can be imposed against a Defendant in a Clean
Water Act civil enforcement action without providing the basic Due Process protections
normally afforded to defendants accused of criminal violations of the Clean Water Act where the
only difference is whether the government seeks a term of incarceration for the alleged violation.
3. Whether a Defendant in a civil enforcement action can be found to have intentionally
and flagrantly violated an unpublished, unannounced, improperly promulgated restriction on the
use of his own private property.
4. Whether a judgment in a civil enforcement action that is rendered and affirmed
through the wholesale disregard of the law, the facts, and the record is void such that it may be
vacated at any time pursuant to Supreme Court Rule 60(b)(4) and/or(6).

ii

PARTIES TO THE PROCEEDINGS
Petitioner is Paul A. Heinrich. Respondent is the United States of America.

Hi
TABLE OF CONTENTS
QUESTION PRESENTED............................................................................................
PARTIES TO THE PROCEEDINGS............................ ........................................
TABLE OF AUTHORITIES............................................................................
PETITION FOR A WRIT OF A CERTIORARI....................................................................
OPINIONS BELOW.......................................... ................................................
JURISDICTION.........................................................................
CONSTITUTIONAL, STATUTORY, AND REGULATORY PROVISIONS INVOLVED
STATEMENT OF THE CASE..................
INTRODUCTION......................................
FACTS........................................................
REASONS FOR GRANTING THE WRIT.
I.

n.

m.

1

n
v
1

1
1
2
6
6
11
30

THIS COURT SHOULD GRANT CERTIORARI because this case allows the Court to
acknowledge and address the obstacles victims of judicial prejudice must face in order to
obtain impartial justice, a fair trial, and meaningful review.
THIS COURT SHOULD GRANT CERTIORARI because this case offers the Court the
opportunity to address some of the most insidious non-violent abuses everyday citizens
suffer at the hands of over-zealous Federal/State bureaucrats and “win at all cost”
prosecutors who are in turn whole-heartedly supported by unsympathetic judges presiding
over a “rocket docket” judicial system tipped in favor of government interests and against
the little guy.
THIS COURT SHOULD GRANT CERTIORARI because this case presents the Court
the opportunity to identify and clarify the legal rights, responsibilities, and the duty to
disclose exculpatory evidence of all participants related to complex, intertwined FederalState regulation, rule-making, and enforcement through civil administrative law litigation
where no guidance now exists and to address the need for greater constitutional
protections for Defendants in civil enforcement actions brought by the government in
Federal Court.

IV

APPENDICES
Appendix A
Order, United States v. Heinrich, No. 18-3198 (7th Cir. 2020)
Appendix B
Opinion and Order, United States v. Heinrich, 03-C-075-jdp (W.D Wis. Sept 17, 2018)

Appendix C
Order, United States v. Heinrich, No 05-3199 (7th Cir. 2006)
Appendix D
Judgment, United States v. Heinrich, No. 03-C-075-S (W.D Wis. June 17, 2005)
Appendix E
Memorandum Opinion and Order, United States v. Heinrich, No. 03-C-75-S (W.D. Wis.
Sept. 18, 2003) note 23a is in the wrong place it should be at 41a

V

Table of Authorities
CASES
Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847 (1988)...............

21, 28, 32

SCA Services, Inc., v. Hon. Robert D. Morgan,, 557 F.2d 110 (7th Cir. 1977)

27

Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238 (1944)...............

28

Brady v. Maryland, 373 U.S. 83 (1963)........................................................... ..

25, 34

MIF Realty L.P., v. Rochester Associates, 92 F.3d 752 (8th Cir. 1996)..............

33

Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813 (1986)............................................

29

Sackett v. EPA, 566 U.S. 120 (2012)..................................................................

8

Fowler v. Butts, 829 F. 3d 788 (7th Cir. 2016)

29

STATUTES AND CODES
28 U.S.C. § 455

2, 6, 32

Fed. R. Civ. P. 60(b)

7, 24, 25, 26, 27, 28, 32
JOURNAL ARTICLES

Jonathan I. Chamey, Needfor Constitutional Protections for Defendants in Civil Penalty Cases,
59 Cornell L. Rev. 478 (1974)
34

3tt Hjc
Supreme GInuri of tlp> QHrttich JMaies

Paul A. Heinrich,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court ofAppeals for the Seventh Circuit

Petition for a Writ of Certiorari
Petitioner Paul A. Heinrich respectably petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Seventh Circuit in this case.
Opinions Below
The panel opinion of the United States Court of Appeals (Pet. App. a.) for the 7th Circuit
is unofficially reported at Fed. App’x (7th Cir. 2020). The Order of the United States District
Court for the Western District of Wisconsin (Pet. App. b.) denying Mr. Heinrich’s Motion for a
New Trial and for Reconsideration is also unreported.
The panel opinion of the United States Court of Appeals (Pet. App. c.) for the 7th circuit is
unofficially reported at 184 Fed. App’x. 542 (7th Cir. 2006). The memorandum opinion of the
United States District Court for the Western District of Wisconsin (Pet. App. e.) is also
unreported.

Jurisdiction
The judgment of the United States Court of Appeals for the 7th circuit was entered on
April 30, 2020. (Pet. App. a.). This Court’s COVED-19 related Order dated March 19, 2020,
extended the filing deadline to 150 days from the date ofjudgment. This Court has jurisdiction
under 28 U.S.C. §1254(1).

2
Constitutional, Statutory,
and Regulatory Provisions Involved
U.S. Const. Amend. V provides in relevant part:
No person shall be...deprived of life, liberty, or property, without due process of the
law....
U.S. Const. Amend. VI provides in relevant part:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial,
by an impartial jury of the state and district where in the crime shall have been
committed,...; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and have the assistance of counsel for his
defense
Rule 60. Relief from a Judgment or Order
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding. On motion and just
terms, the court may relieve a party or its legal representative from a final judgment,
order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier
judgment that has been reversed or vacated; or applying it prospectively is no longer
equitable; or
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be made within a reasonable time and for
reasons (1), (2), and (3) no more than a year after the entry of the judgment or order or the
date of the proceeding.
(2) grant relief under 28 U.S.C. §1655 to a defendant who was not personally notified of
the action; or
(3) set aside a judgment for fraud on the court.

28 U.S. Code §7455. Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned.

3
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge
of disputed evidentiary facts concerning the proceeding;
(2) Where in private practice he served as lawyer in the matter in controversy, or a lawyer
with whom he previously practiced law served during such association as a lawyer
concerning the matter, or the judge or such lawyer has been a material witness concerning
it;
(3) Where he has served in governmental employment and in such capacity participated
as counsel, adviser or material witness concerning the proceeding or expressed an opinion
concerning the merits of the particular case in controversy;
(4) He knows that he, individually or as a fiduciary, or his spouse or minor child residing
in his household, has a financial interest in the subject matter in controversy or in a party
to the proceeding, or any other interest that could be substantially affected by the outcome
of the proceeding;
(5) He or his spouse, or a person within the third degree of relationship to either of them,
or the spouse of such a person:
(i) Is a party to the proceeding, or an officer, director, or trustee of a party;
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially affected by the
outcome of the proceeding;
(iv) Is to the judge’s knowledge likely to be a material witness in the proceeding.
(c) A judge should inform himself about his personal and fiduciary financial interests, and
make a reasonable effort to inform himself about the personal financial interests of his
spouse and minor children residing in his household.....
Section 59aa of Title 33 of the United States Code, provides in pertinent part:
The portion of the Wisconsin River above the hydroelectric dam at Prairie du Sac,
Wisconsin, is hereby declared to be a non-navigable waterway of the United States for
purposes of Title 46, including but not limited to the provisions of such title relating to
vessel inspection and vessel licensure, and the other maritime laws of the United States.
Section301(a)of the Clean Water Act, 33 U.S.C. §1311 (a), provides in pertinent part:
Except as in compliance with this section and section[] ...1344 of this title, the discharge
of any pollutant by any person shall be unlawful.
Section 404 of the Clean Water Act, 33 U.S.C. § 1344, provides in pertinent part:
(a) The Secretary may issue permits, after notice and
opportunity for public hearings for the discharge of dredged or fill material in to the
navigable waters at specific disposal areas.
(e)(1) In carrying out his functions relating to the discharge of dredged or fill material

4
under this section, the Secretary may, after notice and opportunity for public hearing,
issue general permits on a State, regional, or nationwide basis for any category of
activities involving discharges of dredged or fill material if the Secretary determines that
the activities in such category are similar in nature, will cause only minimal adverse
environmental effects when performed separately, and will have only minimal cumulative
adverse effect on the environment. Any general permit issued under this subsection shall
(A) be based on the guidelines described in subsection (b)( 1) of this section, and (B) set
forth the requirements and standards which shall apply to any activity authorized by such
general permit.
Section 502 of the Clean Water Act, 33 U.S.C. § 1362 (5) (7), provides in pertinent part:
(5) The term "person" means an individual, corporation, partnership, association, State,
municipality, commission, or political subdivision of a State, or any interstate body.
(6) The term "pollutant" means dredged spoil, solid waste, incinerator residue, sewage,
garbage, sewage sludge, munitions, chemical wastes, biological materials, radioactive
materials, heat, wrecked or discarded equipment, rock, sand, cellar dirt and industrial,
municipal, and agricultural waste discharged into water...
(7) The term"navigable waters"means the waters of the United States, including the
territorial seas.
Section 328.3 of Title 33 of the Code of Federal Regulations, 33 C.F.R. § 328.3, provides
the following definitions in pertinent part:
(а) The term waters of the United States means
(1)) All waters which are currently used, or were used in the past, or may be susceptible
to use in interstate or foreign commerce, including all waters which are subject to the ebb
and flow of the tide;
(2) All interstate waters including interstate wetlands;
(3) All other waters such as intrastate lakes, rivers, streams (including intermittent
streams), mudflats, sandflats, wetlands, sloughs, prairie potholes, wet meadows, playa
lakes, or natural ponds, the use, degradation or destruction of which could affect interstate
or foreign commerce including any such waters:
(i) Which are or could be used by interstate or foreign travelers for recreational or other
purposes; or
(ii) From which fish or shellfish are or could be taken and sold in interstate or foreign
commerce; or
(iii) Which are used or could be used for industrial purpose by industries in interstate
commerce;
(4) All impoundments of waters otherwise defined as waters of the United States under
the definition;
(5) Tributaries of waters identified in paragraphs (a) (1) through (4) of this section;
(б) The territorial seas;

5
The definitions of "waters of the United States" found at 40 C.F.R. § 230.3(s) and 40
C.F.R. § 232.2 are substantively the same.
(7) Wetlands adjacent to waters (other than waters
that are themselves wetlands) identified in paragraphs (a) (1) through (6) of this section.
(8) Waters of the United States do not include prior converted cropland. Notwithstanding
the determination of an area's status as prior converted cropland by any other Federal
agency, for the purposes of the Clean Water Act, the final authority regarding Clean
Water Act jurisdiction remains with EPA.
(b) The term wetlands means those areas that are inundated or saturated by surface or
ground water at a frequency and duration sufficient to support, and that under normal
circumstances do support, a prevalence of vegetation typically adapted for life in
saturated soil conditions. Wetlands generally include swamps, marshes, bogs, and similar
areas.
(c) The term adjacent means bordering, contiguous, or neighboring. Wetlands separated
from other waters of the United States by man-made dikes or barriers, natural river berms,
beach dunes and the like are "adjacent wetlands."
(e) The term ordinary high water mark means that line on the shore established by the
fluctuations of water and indicated by physical characteristics such as clear, natural line
impressed on the bank, shelving, changes in the character of soil, destruction of terrestrial
vegetation, the presence of litter and debris, or other appropriate means that consider the
characteristics of the surrounding areas.
Section 330.2 of Title 33 of the Code of Federal Regulations, 33 C.F.R. § 330.2, provides
in pertinent part:
(c) Authorization means that specific activities that qualify for an NWP may proceed,
provided that the terms and conditions of the NWP are met. After determining that the
activity complies with all applicable terms and conditions, the prospective permittee may
assume an authorization under an NWP. This assumption is subject to the DE's authority
to determine if an activity complies with the terms and conditions of an NWP. If
requested by the permittee in writing, the DE will verify in writing that the permittee's
proposed activity complies with the terms and conditions of the NWP. A wriUen
verificaJon may contain activity-specific conditions and regional conditions which a
permiUee must satisfy for the authorization to be valid.
(d) Headwaters means non-tidal rivers, streams, and their lakes and impoundments,
including adjacent wetlands, that are part of a surface tributary system to an interstate or
navigable water of the United States upstream of the point on the river or stream at which
the average annual flow is less than five cubic feet per second....
Section 330.4(c) of Title 33 of the Code of Federal Regulations, 33 C.F.R. § 330.20,
provides in pertinent part:
State 401 water quality certification.

6
(1) State 401 water quality certification pursuant to section 401 of the Clean Water Act,
or waiver thereof, is required prior to the issuance or reissuance of NWPs authorizing
acJviJes which may result in a discharge into waters of the United States.
(3) If a state denies a required 401 water quality certification for an activity otherwise
meeting the terms and condiJons of a particular NWP, that NWP's authorization for all
such activities within that state is denied without prejudice unJl the state issues an
individual 401 water quality certification or waives its right to do so. State denial of 401
water quality certification for any specific NWP affects only those activities which may
result in a discharge. That NWP continues to authorize activities which could not
reasonably be expected to result in discharges into waters of the United States, (footnote
omitted)
(4) DEs will take appropriate measures to inform the public of which activities,
waterbodies, or regions require an individual 401 water quality certification before
authorization by NWP.
(5) The DE will not require or process an individual permit application for an activity
which may result in a discharge and otherwise qualifies for an NWP solely on the basis
that the 401 water quality certification has been denied for that NWP. However, the
district or division engineer may consider water quality, among other appropriate factors,
in determining whether to exercise his discretionary authority and require a regional
general permit or an individual permit.
(6) In instances where a state has denied the 401 water quality certification for discharges
under a particular NWP, permittees must furnish the DE with an individual
401 water quality certification or a copy of the application to the state for such
certification. For NWPs for which a state has denied the 401 water quality certification,
the DE will determine a reasonable period of time after receipt of the request for an
activity-specific 401 water quality certification (generally 60 days), upon the expiration of
which the DE will presume state waiver of the certification for the individual activity
covered by the NWP's. However, the DE and the state may negotiate for additional time
for the 401 water quality certification, but in no event shall the period exceed one (1) year
(see 33 CFR 325.2(b)(l)(ii)). Upon receipt of an individual 401 water quality certification,
or if the prospective permittee demonstrates to the DE state waiver of such certification,
the proposed work can be authorized under the NWP....
Statement of the Case
Introduction
This case concerns what duty is imposed upon a trial and appellate court, pursuant to 28
U.S.C. §455, to disclose prejudice towards a litigant, class of litigants, or on a particular issue

7
and whether the failure to disclose such prejudice tolls any time limit a litigant has to raise the
issue through a Motion for a New Trial brought pursuant to Supreme Court Rule 60(b). At issue
is the discovery ofjudicial prejudice post- trial and/wst-appeal where the record itself proves
judicial prejudice and the failure of the Court of Appeals to provide meaningful review.
This appeal is not a complaint about the curmudgeonly, short tempered, contemptuous
demeanor of a District Court judge. To the contrary; it is the pre-trial, trial, and post-trial
procedures and the manner in which both sets of the lower courts dealt with the facts and
controlling law of this case which irrefutably illustrates prejudice and its crippling effects, which
imposed upon the Petitioner insurmountable obstacles to fair judgment.
Nor is this appeal about sour grapes or a second bite of the apple. It isn’t about the
restoration work, the fine, or the loss of the use of private property. It is about the denial of a
citizen’s right to a fair and impartial trial; a fundamental right denied by judges sworn to uphold
the highest principles of our society in order to provide cover for the incompetence and
malfeasance of a handful of hubristic government agents who thought they owned the whole of
America’s land. It is about the destruction of the reputation, self-esteem, and career of an
attorney whose only errors were to have dared to actually read the law for himself and to believe
that the law would protect him from overreaching bureaucrats who themselves couldn’t,
wouldn’t, and didn’t read and follow their own rules and regulations. It is about a department of
justice who knowingly stood by and cheered as it encouraged the lower courts to enforce and
uphold an unpublished, ex post facto restriction on the use of private property that was
improperly and illegally promulgated; who demanded punishment with criminal sanctions the

8
intentional, flagrant violation of an unpublished, unannounced, secret communication between
two agencies. It is about a court of appeals panel who effectively slut-shamed the Petitioner to
provide cover for the incompetence of bureaucrats.
This case is about the unfairness of prosecuting a citizen for disagreeing with the
“opinions” of government agents who admitted the law was unclear and where there was no pre­
violation legal process or means to determine what the law actually required. Sackett v. EPA,
566 U.S.120 (2012) now provides at least some avenue for legal guidance, but none was
available to the Petitioner.
In this case, Petitioner, a traffic law attorney, asked the USACOE if he could build a road
from the upland portion of his property through its wetland portion in order to access his
lakefront. It began as a dispute between the United States Army Corps of Engineers and the
Petitioner over the meaning and legal effect of Corps guidance. At issue was whether the
construction of a forest road through privately owned wetlands was exempt from the Clean
Water Act’s prohibition against placing fill in a wetland if the landowner intended to use the road
for dual pUrposes-forest and lakefront access-ab initio. Petitioner wanted access to his lakefront
for his seaplane and in order to accomplish that he claimed that he needed to constmct a forest
road through the wetland to harvest the trees first. The Corps written guidance was unclear.
The Corps was unable to provide a definitive answer and Petitioner asked them if there
was a legal procedure through which one could be provided. He was advised that there was not
and that the only way to find out if the road constmction was legal was to build it and to risk
being sued by the government for a Clean Water Act violation. Petitioner also believed that his

9
construction project was permitted by the Nationwide Permit program also administered by the
United State Army Corps of Engineers. Through contact and correspondence with the Corps
Regional Director and field agents, the government’s agents concluded that Petitioner had made
good faith efforts to resolve the dispute in order to avoid a Clean Water act violation.
The law denied a landowner the opportunity to determine whether or not “information”
coming from Federal administration agents, such as the USACOE and EPA concerning what
actions a homeowner could or could not do on his own property, was lawful and correct. If a
homeowner wanted to conduct some activity that could possibly be subject to administrative
regulation the could either blindly follow whatever the agents suggested the regulations said and
thereby not use his property or disagree with the agents and move forward with his project.
Moving forward, however, was at the risk of jail and/or financial ruin.
Petitioner build the road and the government sued.
The government’s own witnesses testified that the forest road was property constructed,
that it appeared to be maintained for the purpose of forestry access, and that it was necessary for
the forestry activities conducted by the Petitioner. The government also acknowledged that the
Petitioner had made good faith efforts to resolve the disputed issues throughout his contact with
the government agents in order to avoid committing a CWA violation.
Petitioner also claimed his activities were allowed under the United States Army Corps of

'Petitioner, himself, initially tried to file suit on February 7, 2003 to Quiet Title (03-C-71S). That case was consolidated with this case, 03-C-75-S, the government’s February 11, 2003
Compliance Order enforcement action, and ultimately dismissed. Petitioner simply had no way
of determining whether what the government’s agents told him was accurate.

10
Engineers Nationwide Permit Program. During the course of proceedings petitioner discovered
that not only was the State of Wisconsin’s response to the Corps request for Water Quality
Certification for its Nationwide Permit program untimely, it was completely illegal and
unenforceable under both Federal and State law. The relevant State Agency, the Wisconsin
Department of Natural Resources (WDNR), violated every aspect of both its own agency rules
and regulations and the State’s Administrative Procedures Act with regards to making, issuing,
and announcing Administrative Rules and Orders. The Corps, in turn, then violated its own
rules, regulations and the Federal Administrative Procedures Act in the manner of its response to
Wisconsin’s submission and, crucially, failed to announce its decision in the Federal Register
(which it had promised to do when it announced the NWPs). Ignoring the facts before him and
the uncertain meaning of the guidance and the status of the regulations, the Trial Court, on
summary judgment and at the penalty phase, decided otherwise.
Petitioner raised these issues in the trial court, the trial court ruled on those issues,
government admitted he raised those issues. Inexplicably and without legal or factual basis, the
7th Circuit defaulted Petitioner on the issues because he failed to raise them in the court below
and to the extent the court did address them, they blamed the Petitioner for confusing the agents.
Had either the trial court or the court of appeals actually addressed the legal issues which
were properly and timely raised judgment could only have been issued in favor of the Petitioner.
No facts are in dispute for the purpose of this appeal. Consequently, in that one sense, no further
evidence or proceedings are necessary.
This isn’t a joke and it isn’t hyperbole. It is real and the effects are devastating. This

11
should never have been a close case. The law with regard to Petitioner’s claim he held a valid
Nationwide Permit for his activities was clear and the facts contained in the record are
indisputable: An undisclosed, unpublished regulation that was improperly and illegally
promulgated cannot be the basis for finding the Petitioner intentionally and flagrantly violated
the law.
This case can set minimum due process standards for courts employing rocket docket
procedures and what meaningful review entails. It will allow this Court to clarify what basic due
process rights must be provided prior to imposing punitive sanctions in a civil enforcement
action.

Facts
Mr. Heinrich’s Property. Mr. Heinrich owns 9.5 acres of lake front property in Star
Lake Wisconsin. Eight of those acres are forested wetland.
Mr. Heinrich’s forested wetland is a white Cedar Swamp; it is above the ordinary high
water mark of Little Star Lake and above the headwaters of the Wisconsin River watershed. Mr.
Heinrich’s wetland abuts Little Star Lake, which is a natural lake with about 100 acres of surface
water and a maximum depth of 9 feet. Portions of Little Star Lake are themselves wetland and
are so identified by the Wisconsin wetlands inventory map. The portions of Little Star Lake
abutting Mr. Heinrich’s wetland are among the wetlands identified on the map.
Congress has specifically determined that the waters with which Mr. Heinrich’s wetland
is congruous or not “navigable waters.” Furthermore, by virtue of Mr. Heinrich’s wetland’s

12
location upstream from the headwaters, above the ordinary high watermark, and the minimal
amount of water flow involved, Mr. Heinrich wetland is distinct from neighboring water bodies.
Little Star Lake drains into Star Lake, which, through a series of tributaries, drains into
the Wisconsin River and then eventually into the Mississippi River.
Mr. Heinrich’s Construction of the Private Road In August 1997, Mr. Heinrich
engaged a contractor to build a grass-covered road through his forested wetland. The purpose of
the road was two-fold: to provide access for logging and to provide access for Mr. Heinrich’s
seaplane. Other than the roadbed itself, all areas of the site remained a forested wetland, and
there was no wetland disturbance outside the roadbed.
The activities undertaken by Mr. Heinrich were sufficiently minor as to fall within the
Corps NWP 26, as the 7th circuit acknowledged:
“[Mr. Heinrich’s] Seaplane access road met the criteria of a Corps nationwide
permit that was in effect at the time, known as NWP 26, which allowed small
projects like his with minimal environmental impact to proceed without advance
federal approval.”
Thus, the 7th circuit specifically recognized that Mr. Heinrich’s road had minimal
environmental impact and there is no record evidence to show that the road had any significant
effect on navigable waters or upon the nearby lake or downstream.
Mr. Heinrich’s Communications with the Regulators
Petitioner is a lawyer, but he does not normally practice in Federal Court. Nor does he
practice environmental law. Nevertheless he attempted to represent himself in this matter from its
inception. At various times beginning in late 1996 petitioner met with representatives about the

13
Wisconsin Department of natural resources and the courts to discuss what regulations might
apply to his project.
In this case, Petitioner, a traffic law attorney, asked the USACOE if he could build a road
from the upland portion of his property through its wetland portion in order to access his
lakefront. It began as a dispute between the United States Army Corps of Engineers and the
Petitioner over the meaning and legal effect of Corps guidance. At issue was whether the
construction of a forest road through privately owned wetlands was exempt from the Clean
Water Act’s prohibition against placing fill in a wetland if the landowner intended to use the road
for dual purposes-forest and lakefront access-ab initio. Petitioner wanted access to his lakefront
for his seaplane and in order to accomplish that he claimed that he needed to construct a forest
road through the wetland to harvest the trees first. The Corps written guidance was unclear.
The Corps was unable to provide a definitive answer and Petitioner asked them if there
was a legal procedure through which one could be provided. He was advised that there was not
and that the only way to find out if the road construction was legal was to build it and to risk
being sued by the government for a Clean Water Act violation. Petitioner also believed that his
construction project was permitted by the Nationwide Permit program also administered by the
United State Army Corps of Engineers. Through contact and correspondence with the Corps
Regional Director and field agents, the government’s agents concluded that Petitioner had made
good faith efforts to resolve the dispute in order to avoid a Clean Water act violation.
The law denied a landowner the opportunity to determine whether or not “information”
coming from Federal administration agents, such as the USACOE and EPA concerning what

14
actions a homeowner could or could not do on his own property, was lawful and correct. If a
homeowner wanted to conduct some activity that could possibly be subject to administrative
regulation the could either blindly follow whatever the agents suggested the regulations said and
thereby not use his property or disagree with the agents and move forward with his project.
Moving forward, however, was at the risk of jail and/or financial ruin.
Petitioner build the road and the government sued.2
As eventually proved in the District Court, the government’s own witnesses testified that
the forest road was property constructed, that it appeared to be maintained for the purpose of
forestry access, and that it was necessary for the forestry activities conducted by the Petitioner.
The government also acknowledged that the Petitioner had made good faith efforts to resolve the
disputed issues throughout his contact with the government agents in order to avoid committing a
CWA violation.
Petitioner also thought his activities were allowed under the United States Army Corps of
Engineers Nationwide Permit Program. During the course of proceedings petitioner discovered
that not only was the State of Wisconsin’s response to the Corps request for Water Quality
Certification for its Nationwide Permit program untimely, it was completely illegal and
unenforceable under both Federal and State law. The relevant State Agency, the Wisconsin
Department of Natural Resources (WDNR), violated every aspect of both its own agency rules

Petitioner, himself, initially tried to file suit on February 7, 2003 to Quiet Title (03-C-71S). That case was consolidated with this case, 03-C-75-S, the government’s February 11, 2003
Compliance Order enforcement action, and ultimately dismissed. Petitioner simply had no way
of determining whether what the government’s agents told him was accurate.

15
and regulations and the State’s Administrative Procedures Act with regards to making, issuing,
and announcing Administrative Rules and Orders. The Corps, in turn, then violated its own
rules, regulations and the Federal Administrative Procedures Act in the manner of its response to
Wisconsin’s submission and, crucially, failed to announce its decision in the Federal Register
(which it had promised to do when it announced the NWPs and which Corps guidance required).
Petitioner raised these issues in the trial court, the trial court ruled on those issues, government
admitted he raised those issues. Inexplicably and without legal or factual basis, the 7th Circuit
defaulted Petitioner on the issues because he failed to raise them in the court below and to the
extent the court did address them, they blamed the Petitioner for confusing the agents.
During the relevant time period, federal and state wetland regulations were in flux. The
Corps was in the process of issuing and re-issuing a series of Nationwide Permits, which, among
other things, allow for fill activity in wetlands that caused a little or no environmental harm. It
was not until February 11, 1997 at the 1997 Nationwide Permits including NWP 26 went into
affect. 61 Fed. Reg. 65,874 (Dec 13, 1996). As the seventh circuit determined below, Mr.
Heinrich’s road project complied with the requirements of NWP 26.
At the same time, relevant state water quality certification requirements were also in flux.
As the Seventh Circuit explained in its ruling, federal regulations require that a state of evaluate
and NWP to determine whether it complies with the states on water quality standards. If it does,
the state grants blanket water quality certification for the NWP. If a state denies certification for
a particular NWP, or if the court do use the conditions imposed by a state to be the equivalent of
a denial, individuals seeking to proceed under NNWP must obtain individual water quality

16
certification.
Here, Wisconsin attempted to partially grant water quality certification for a number of
nationwide permits, including NWP 26. However, as the seventh circuit noted, the Corps
determined on April 30, 1997, that Wisconsin’s position was inconsistent with the Coors
regulations and, therefore, interpreted Wisconsin’s position as a constructive rejection of NWP
26. This determination was not published in the Federal Register or otherwise made public; it
was simply communicated by letter from the Corps to the state. Significantly, most of Mr.
Heinrich’s meetings with the regulators occurred before this time, and none include a discussion
of NWP 26.
As a result of the Corps April 30, 1997 determination, an applicant seeking to use NWP
26-like Mr. Heinrich-would also have to obtain an individual state water quality certification.
But no official notice was given to Mr. Heinrich (or to anyone else) that the Corps had
interpreted Wisconsin’s decision as a denial of blanket certification, or that Wisconsin
landowners therefore could not proceed with their projects by relying on NWP 26, but would also
have to obtain an individual state water quality certification.
Because of the flux in permitting requirements, and the Corps failure to give notice that
an individual water quality certification would also be required, Mr. Heinrich did not obtain an
individual state water quality certification. The absence of such a certification provided the
United States Environmental Protection Agency with the basis for its enforcement action against
Mr. Heinrich in the district court.
The initiation of the District Court litigation. On November 20, 2000, the US EPA

17
issued an administrative compliance order under the clean water act, 33 U.S.C. §1319(a),
requiring Mr. Heinrich to “restore” his private wetland. That administrative compliance Order
was later amended on February 9, 2001.
On February 7, 2003, Mr. Heinrich filed a quiet title action seeking to resolve his legal
status. On February 11, 2003, the United States files its Clean Water Act enforcement action
against Mr. Heinrich in the United States District Court for the Western District of Wisconsin.
The two actions were consolidated on April 24, 2003.
The Decision of the District Court. In the district court, Mr. Heinrich and the
government both moved for Summary judgment on some of the issues raised in the
government’s complaint and Mr. Heinrich’s counter-claim.3 Among the issues considered by the
District Court was whether Mr. Heinrich’s road construction activity was exempt from regulation
as a “forest road” and whether the road was permitted under NWP 26.
The trial court’s April 4 scheduling order set Discovery was to be conducted over roughly
4 months and was to be concluded by September 17,2003. That Order required motions for
Summary Judgment were due to be filed no later than August 1, 2003 and Petitioner’s response
to Summary Judgment was due 21 days later. Trial was set for October.
The government’s Motion for Summary Judgment was filed before any depositions were
taken and was based upon and supported by affidavits from 12 different Federal and State

3The Trial Court falsely claimed that the parties submitted summary judgment motions
that encompassed “all of the issues.” Written discovery had barely begun when summary
judgment motions were due and no depositions of any of the witnesses had been taken at that
point.

18
government employees totaling approximately 200 pages. Petitioner’s response was due 21 days
later. As of his response due date, the Petitioner had not been able to schedule the depositions of
any of those affiants. Petitioner filed a Motion to Compel Discovery on August 14 because he
believed the government was withholding critical documentation related to the validity of the
administrative regulations at issue and for additional time in which to respond to the
government’s Motion for Summary Judgment. The motion to compel discovery and for
additional time in which to respond to summary judgment was denied. The government never
produced the documents which irrefutably show the state action was illegal and unenforceable.
Petitioner also requested additional time in which to prepare his case during the
September 17, final pre-trial conference to which the Judge responded:
“And that’s one thing I don’t plan to do in this case is to allow your creativity or
that of opposing counsel to run rampant....I imagine if you stay up longer tonight
you’ll probably think up another half a dozen [issues that he would have to rule
on] and I don’t want that to occur.” (Docket 160, pg. 19, In. 10-16).
Summary Judgment was entered in favor of the government on September 18 and a hearing was
held before the judge on the issue of injunctive relief and damages on October 6 and 7.
Judgment was entered based upon the government’s filings at a time when discovery had not
begun and had not yet been concluded. No jury was ever empaneled and no trial was ever held.
The Trial Court Summary Judgment Order and Memorandum made no formal findings of
fact or conclusions of law or rulings on the objections to and/or the admissibility of evidence. To
the extent the Trial Court made any findings of fact at all, each finding, including the critical
issues of knowledge and intent, were based upon disputed evidence; evidence which was

19
contradicted by the government’s own witnesses, and was viewed in light most favorable to the
movant for Summary Judgment.4
Upon conclusion of the October 6-7, 2003 hearing the court imposed upon Mr. Heinrich a
$75,000 fine and granted the government full injunctive relief. Mr. Heinrich appealed. That
appeal was dismissed as untimely. That Court of Appeals found that the lower court judgment
called for a court approved wetland restoration plan and that since that plan had not been yet
approved, the appeal was premature. The case was sent back to the District Court for entry of the
restoration plan.
Between the October 2003 hearing and the remand in 2005, Mr. Heinrich was able to
discover the documents proving the state had acted illegally (the documents which he had sought
before his summary judgment response was due) by researching Wisconsin’s state library and its
administrative offices. Mr. Heinrich immediately filed a motion to reconsider the trial court’s
ruling on Summary Judgment as soon as the case was remanded to the Trial Court. (Dkts. 169,
171, 172) In that motion to reconsider, Mr. Heinrich fully set forth his argument that the
requirement that he needed state water quality certification was unlawful and unenforceable.
That motion was denied on June 15, 2005, as a “rehash” of arguments previously rejected by the
Trial Court.5

4The Court of Appeals went even further; inventing a fact pattern and theoiy of the case
and making the worst possible adverse inferences against Mr. Heinrich from the disputed
evidence that neither the government advanced nor the Trial Court found.
5This finding is important because the court of appeals refused to address these issues on
appeal, concluding that the state law issues were never raised in the court below; an obvious and
apparent fabrication of the contents of the trial court record.

20
On June 17, 2005 the trial court judgment was amended to provide the government
declaratory relief and an approved wetland restoration plan. Mr. Heinrich then appealed.
The 2005 7th Circuit’s Decision
On that appeal, Mr. Heinrich argued that a state water quality certification could not be
required for NWP 26 projects in Wisconsin, such as his, because (a) Wisconsin had not met
applicable deadlines for submitting its final state water quality certification to the Corps and had
acted in violation of the State’s own Administrative Procedures Act and its rules and regulations,
(b) the enforcement of unpublished conditions on the nationwide permit program was illegal and
unenforceable, and (c) the Corps acted in violation of its own rules, regulations, guidance, public
notices, and the Federal APA preventing it from enforcing the unpublished restriction on the
NWPs.
Instead of addressing the cogent, detailed fact-based legal arguments that were presented
on appeal, the 7th Circuit ignored them, instead choosing to blame Mr. Heinrich for intentionally
and flagrantly violating a unpublished restriction that none of the government witnesses even
knew about and that the government never argued was applicable in the District Court.6 The 7th
Circuit blamed Mr. Heinrich for causing confusion amongst the government agents as if that was
some excuse for the government’s wholesale failure to follow the Constitution, the law, the

6The government had argued that the state’s water quality certification decision had
prohibited NWP 26 from being used for access paths. The government’s only reference to the
state water quality certification decision only appears in a footnote in its reply brief to its motion
for summary judgment. In his appeal Mr. Heinrich correctly pointed out that a position taken for
the first time a reply brief is improper and not to be considered. The 7th Circuit refused to
address Mr. Heinrich’s argument.

21
Administrative Procedures Act, and its own rules, regulations, and guidance.
On appeal, every single disputed issue of fact, including critical issues of intent were
either were resolved in favor of the government movant or wholly assumed, presumed, and/or
fabricated in the absence of any such findings by the trial court. For example, the 7th Circuit
concluded that the Petitioner tried to “film-flam” the government agents about the purpose of his
road building project when the record indisputably reveals that he was completely forthright with
the government about his project and that he had made good faith efforts to resolve the issues
raised by his project before moving forward.
Without basis in law or in fact, the 7th Circuit’s conclusion that the government’s failure
to properly promulgate and publish its (illegal, ex post facto) restrictions on the use of previously
published nationwide permits was an excusable government SNAFU, and that the restrictions
were enforceable without any prior notice because the Petitioner’s deceitful and dishonest
film-flam “confused” the government agents; a theory of the case and a finding never suggested
nor proved by the government and one that the Trial Court never issued.
The seventh circuit stated that although the court “might agree” with Mr. Heinrich that
“Corps officials should have done more to let those potentially affected... know that they had to
get individual certifications”, the Corps failure to do so did not violate any statute or regulation
regarding notice by publication. The Court also acknowledged that applicable regulations
required Corps district engineers to “take appropriate measures to inform the public of which
authorities, water bodies, or regions require an individual water quality certification before
authorization by NWP.”

22
The 7th Circuit refused to address Petitioner’s claim that Federal and State ABA laws
prohibited enforcement of the secret correspondence between the USACOE and the WDNR;
asserting that the claim was somehow post hoc or not raised in the trial court. Both excuses are
patent falsehoods which are revealed by the record: not only did the Petitioner file a motion
desperately seeking to compel discovery on this critical issue (because the government
successfully delayed producing the evidence so Petitioner could not include it in his response to
SJ) he actually raised the issue at his first opportunity. (Dkts. 179, 170, 171).
The Seventh Circuit gave short shrift to due process, apparently choosing to find fault
with Mr. Heinrich for not reading the regulations. But Mr. Heinrich did read the regulations. The
problem is that the regulations did not put him on notice that an individual water quality
certification was required.7 The only thing that would have put Mr. Heinrich on notice of that
requirement was the Corps' letter determination, which was sent to the State of Wisconsin, but
neither published nor made publicly available. That is why Mr. Heinrich's punishment is
predicated upon secret law.
The government also has suggested that the Corps' failure to comply with the
Constitution, as well as its own regulations, is immaterial, because Mr. Heinrich's conversations
with regulators provided an appropriate substitute. There is no evidence to show that those
conversations involved any discussion about the intersection of NWP 26 and any individual
water quality certification requirements. Indeed, it is undisputed that the NWP 26 was simply

7 Indeed, what Mr. Heinrich (but not the Corps) did learn from those regulations is that
the Corps is affirmatively required to inform the public as to when an individual water quality
certification is necessary. That, of course, it did not do.

23

never discussed. (Dkt. 104 (Deposition of M. O'Keefe), p. 99, Ins. 6-9, pg. 104, Ins 12-17.)
The seventh circuit lambasted Mr. Heinrich for “cavalierly” moving forward without first
discovering that the Corps had secretly denied blanket certification. However, 33 C.F.R. §330.2
states: “After determining that the activity complies with all applicable terms and conditions, the
prospective permittee may assume an authorization under an NWP.” (Emphasis added).
When a citizen cannot rely on the notice requirements stated in the applicable regulations,
he is left in the dark as to what is required of him. That is what happened here, and it cannot,
consistent with due process, provide a basis for punishment.
The only clear undisputed facts relevant here is whether the Federal and State
administrative agencies followed their own rule making procedures and published the results.
The only answer is no, neither agency did and as a consequence the regulations they sought to
enforce were unenforceable; arbitrary, capricious, and not in accordance with law.
The fact that they were not published prohibited their enforcement under the Due Process clause
of the us constitution. There is no gray area.
-

The 7th Circuit cited no law which excuses the government from following federal and

State mandated APA rules and regulations in propagating rules and restrictions. They cited no
law that negates the Constitutional requirement that laws cannot be enforced unless published
merely because the government doesn’t like the laws they themselves wrote, or tried to write,
and/or because the judge thinks a litigant appearing before them was a jerk.
Petitioner was found to be an intentional, flagrant violator a law that was never properly
promulgated nor published merely because the Petitioner dared to disagree with government

24
agents about the meaning of obtuse agency guidance and the law. They upheld the fine of
approximately 2 and Vi times his annual net income as a penalty, in addition to having to restore
the site and monitor it for 5 years. The 7th Circuit labeled Petitioner a deceitful, dishonest flim­
flam.
District Court’s Order Denying Motion for a New Trial
Now current Trial Court faults the unfairly terrorized and traumatized Petitioner for
waiting too long to return to the very courts that destroyed him. After being denied basic due
process by a prejudiced judge and then viciously slut-shamed by the appeals court, a litigant can
not be faulted for being reluctant to return for redress to the very system that treated him so
unfairly.
The District Court asserted that Petitioner should have brought his claims on direct
appeal, ignoring that it wasn’t until the record proving prejudice was complete that the facts were
revealed. Moreover, it ignored the reality of the original court’s rocket docket which prevented
Petitioner from barely raising his substantive defenses, not to mention procedural ones.
Moreover, Petitioner requested an evidentiary hearing in order to elaborate on and further
prove judicial prejudice, the prejudice resulting from the government’s failure to disclose
exculpatory evidence and, if necessary, to further explain his justification for any delay. Case
law indicates that the reason for delay in filing a Rule 60(b) Motion is a fact-based issue, yet the
lower courts denied Petitioner the opportunity for an evidentiary hearing to present the facts.
7th Circuit’s 2020 Order
The 7th Circuit concluded that the petitioner presented no justification for his delay in

25
filing his Rule 60(b) motion and that he did not explain why he didn’t raise the issue of judicial
prejudice on direct appeal. However, as explained in his Motion and his Brief on appeal,
Petitioner did present substantial justification for his delay: the 7th circuit’s opinion publicly
vilified, excoriated, and professionally humiliated the good faith litigant so viciously and hurtful
that Petitioner was effectively paralyzed by the trauma, shame, and profound fear of being
subjected to further inaccurate humiliating consequences, while it also ensured that no further
Court and no other attorney would ever dare touch this case. For years Petitioner has suffered
existentially, needing to do something to clear his name but knowing that to do so he would have
to return to the very court that humiliated him. He also provided a detailed explanation for why
he didn’t raise the issue ofjudicial prejudice, among others, on direct appeal.
He asserted:
“The record in this case proves the line between pleading and judgment was
unbroken by anything resembling Due Process. Mr. Heinrich’s motion for a new
trial identified the following grounds for vacating the judgment:
1. He had been denied a fair trial because of the District Court’s undisclosed bias
against lawyers, which should have resulted in recusal;
2. He had been denied a fair trial and denied due process because the timing and
scope of pre-trial, trial, and scheduling procedures in the District Court
violated due process;
3. He had been denied a fair trial and due process because the District Court made
substantive rulings outside of the issues presented by the parties;
4. The District Court’s summary judgment decision and permanent injunction
resolved disputed issues of fact without trial, and the permanent injunction
lacked requisite findings;
5. The District Court denied him due process constitutional protections afforded
to criminal defendants, such as right to counsel, Brady disclosures, a jury
trial, and proof of liability beyond a reasonable doubt;
6. The United States failed to provide exculpatory evidence and follow its rules in
promulgating regulations at issue;
7. By government agencies failing to disclose that they were in the process of

26
rewriting a draft field manual that encouraged illegal practices, the United
States obtained its judgment by fraud on the court;
8. He was held to a higher standard for being a lawyer and was denied his right to
assert defenses available to non-lawyers;
9. While admitting that it was not an independent basis for Rule 60 relief,
Heinrich noted that the law regarding pre-enforcement review of agency
action under the Clean Water Act had changed in his favor since the entry
of judgment;
10. This Court’s prior decision on direct appeal was not a meaningful review.”
Mr. Heinrich claimed that a judgment rendered under such circumstances is void and
voidable under Rule 60(b)(4) and (b)(6) because the Trial Court failed to provide him basic due
process rights and protections prior to entry of judgment and that the Court of Appeals failed to
provide meaningful review of case on appeal. Mr. Heinrich asserted that the court record itself
proves his claim. The Government did not deny Heinrich correctly summarized the record.
There is no precedent for the current Trial Court’s summary dismissal of Heinrich’s Rule
60(b) motion for a new trial as per se untimely. Heinrich could find no cases where the discovery
of a jurist’s bias was discovered post-judgment and post-appeal. However, Rule 60(b) motions
are fact dependent and are to be considered on a case by case basis. Heinrich asked the lower
Court for an evidentiary hearing in which to prove the basis for his motion and to explain,
beyond his compelling statements of disability, the reasonableness of any presumed delay in
bringing the motion. The Trial Court denied the motion, citing no authority in support of its
conclusion that the motion was untimely per se.
As Heinrich pointed out in his initial brief, the U.S. Supreme Court has, however, made
clear that a litigant had no duty to discover a jurist’s prejudice and he has no duty to prove actual
prejudice. The Supreme Court and the 7th Circuit has emphasized that the integrity of the process

27
is more important than fmality-particularly in cases, like this, where there was no trial. See
Liljeberg and SCA Services, Inc. v. Hon. Robert D. Morgan.
A judgment rendered without due process is void. It is well settled that a void judgment is
void ab initio and may be vacated anytime. No reasonable person could conclude that the
judgment rendered with this procedural history, the facts, and the controlling law was a fair trial
under Due Process standards and anything other than void. No reasonable person could conclude
that the previous panel provided Heinrich meaningful review on his appeal. One cannot seek a
second bite of an apple if there was no first bite.
The record reflects that Heinrich did not receive a fair trial by a fair and impartial jurist
after having a full and fair opportunity to discover, develop, and present his case as required by
our Constitution. Instead, the government insisted that the court must not look at the very record
which proves Heinrich’s claim. The government argued that these issues could have been raised
on direct appeal, but then inconsistently asserts that Heinrich could not have raised them on
direct appeal because they were not raised below.
Whether any of Heinrich’s claims could have been brought under Rule 60(b)( 1) through
(3), and thus time limited to one year, is irrelevant to this appeal. The lack of fundamental due
process illustrated by the record must be given consideration under Rule 60(b)(4) and (6) because
they prove the assertion that Heinrich received no due process-he received no trial at all. Both
the current Trial Court and the Government failed to appreciate that Heinrich pointed out these
issues not as an independent basis to grant him a new trial under Rule 60(b)(1) through (3), but
rather to illustrate the record, itself, is undeniable proof that Heinrich did not receive a fair trial.

28
The Government argued that a judgment rendered without due process should stand
because the victim waited too long to object. They admitted that determining what is a
“reasonable time” in which to bring a Rule 60(b) motion is fact dependent, but then argue the
current Trial Court did not abuse its discretion when it decided the fact dependent issue without
hearing the facts. Whether reviewed de novo or under an abuse of discretion standard the result
must be the same-given this record and these facts no reasonable person could conclude that
Heinrich received a fair trial in the Court below and meaningful review on appeal.
The Government attempted to stand fundamental Due Process rights on its head-they
argued that Heinrich had the responsibility to discover judicial, prosecutorial, and agency
misconduct in a more timely manner. They do not suggest just how Heinrich should have gone
about such discovery. The Government suggested that they and the courts are free to deny
litigants the right to a fair trial if they can effectively hide their misconduct for a year or more.
But, as the Supreme Court stated with approval in Liljeberg, litigants have no duty to timely
discover judicial prejudice and recusal cannot be waived consciously or by default. “They impose
no duty on the parties to seek disqualification nor do they contain any time limits within which
disqualification must be sought.” Liljeberg citing SCA Services, Inc., v. Hon. Robert D. Morgan,
577 F.2d 110; 117 (7th Circuit).
In Hazel-Atlas Glass Co. v. Hertford-Empire Co., 322 U.S. 238 (1944) the Supreme
Court granted relief from a judgment brought 11 years after the initial decision. In a recent
decision, the 7th Circuit affirmed the notion that “litigants may seek disqualification despite the
absence of a protest in the court where the disqualified judge sat... and treat the participation of

29
a disqualified judge as a form of structural error, which may be noticed at any time.” Fowler v.
Butts, 829 F. 3d 788 (7th Cir. 2016)(italics added). Heinrich is simply not time barred; the duty
to disclose its prejudice lies with the Trial Court.
The government claimed that all these issues could have been raised on direct appeal.
However, the record reflects that not only was Heinrich denied the opportunity to raise his
substantive defenses, the Trial Court’s accelerated pre-trial and trial schedule prevented Heinrich
from raising procedural defenses. Moreover, it must be remembered that the Trial Court
announced on the record that he intended to deprive Heinrich the time necessary to prepare and
present his defense. Thus, unlike the mere conjecture of possible judicial prejudice in Lavoie,
here the overall record itself proves judicial prejudice. If Heinrich was intentionally denied the
bare minimum opportunity to raise valid and correct substantive defenses, he cannot now be
faulted for failing to raise issues of the Trial Court’s prejudice and prejudicial procedural
misconduct.
One must wonder how many other good-faith litigants appearing before this Trial Court
judge were victim of his unrelenting pursuit ofjudicial expediency at the expense of fundamental
fairness. How many good-faith litigants continue to appear before judges with similar “Rocket
Docket” procedures which elevate expediency over fair administration of justice-only to suffer
the same or similar fate? How many instances of structural injustice were witnessed by the
United States Department of Justice, the most common federal court litigant, and were met with
a smug, smiling, self-satisfied silence at a system that overwhelmingly favored them. Opposing
the weight of the U.S. Government on the merits is hard enough on its own without the added

30
weight of a rush to justice thumb on the scale.
The Government’s suggestion that the Court’s bias against Heinrich was permissible
because the Trial Court hated all lawyers-that being equally unfair to everyone is somehow
equivalent to being fair to both-is childishly absurd. Being equally unfair is unfair period full
stop.”

The 7th Circuit decision perpetuates the manifest injustice it previously upheld and must
be reversed.
Reasons for Granting the Writ
The severe time limitations imposed upon Mr. Heinrich throughout the pre-trial
proceedings ensured he would not have sufficient time to discover, prepare, present his defense.
The pre-trial time limitations placed upon Mr. Heinrich were so unrealistic as to render the
District Court’s judgment a sham; the proceedings leading up to the judgment constituted a
wholesale abandonment of fundamental due process and an indisputable denial of impartial
justice and a fair trial.
Whether it was because of personal animosity, party bias, or issue prejudice, or a
combination of all three, the goal remained the same; Petitioner was going to lose his case
regardless of its merit and the courts would sacrifice its legal, ethical, and moral obligations to
ensure that would happen. To obtain that goal the lower courts threw basic principles of
substantive and procedural due process and fundamental fairness out the window and engaged in
the wholesale disregard for the facts, the record, and the law. Throughout the litigation the lower
courts treated the contested issues of fact and law raised by the Petitioner as if they were

31
undisputed and well-settled. To ensure that their improper conduct would face no further
appellate review the lower court viciously slut-shamed the Petitioner—assuming, presuming, and
inventing an unproven fact pattern vilifying the Petitioner for daring to read the law which led
him to disagree with the “opinions” of the government agents and then blaming him for the
failure of the government’s agents to properly promulgate and publish the laws that they wished
to enforce. Petitioner wasn’t going to be given the opportunity to conduct discovery to establish
evidence supporting his case before judgment was entered against him and the facts and legal
arguments that he was able to present were ignored, boiled down, and glossed over in order to
cover up for the incompetence of Federal and State bureaucratic agencies and their agents.
The case was decided on summary judgment. A jury never heard the contested facts or
any aspect of Petitioner’s claims and defenses. Not only was every single adverse inference
concluded from the disputed facts, the very worst possible inferences were assigned to the
Petitioner despite the government’s own admissions that the opposite was true. That sounds
harsh, but the proof is all there in the record waiting to be reviewed and revealed.
The district and appellate courts refusal to address the valid, correct, and controlling legal
issues raised by the Petitioner and their fantastical inventions of fact and law extend beyond mere
error. It is difficult to imagine a more compelling narrative which supports a finding that the
judgment was rendered with complete, wholesale disregard of the facts, the law, and the
fundamental duty of the courts to provide bare minimum substantive and procedural due pro cess
to a litigant.
Such a departure from judicial norms can only be explained by some sort of judicial

32

prejudice. It is more than mere error. The panel’s refusal to provide Heinrich meaningful review
perfected the Trial Court’s initial injustice. It was not mere error; it was manifest error- both the
Trial Court and the appellate panel engaged in the wholesale disregard of the facts and record of
the case and controlling precedent, the misapplication of the law, and the failure to uphold the
rule of law. The record of this case is precisely the extraordinary circumstances which Rule
60(b)(4) and (6) remedies were written to address. It is precisely the record that mandates a
finding under Rule 60(b)(4) that the judgment below and on appeal was void ab initio, or at the
- very least voidable, for the record is completely devoid of bare minimum Due Process standards,
protections, and procedures.
This case presents the opportunity for this Court to expand the ruling in Liljeberg v.
Health Services Acquisition Corp., 486 U.S. 847, 862-70 (1988) to allow a 28 USC §455 motion
for the Disqualification of a Judge, Justice, to be brought even when the discovery of judicial
prejudice is discovered post-trial and post-appeal.
Neither of the original Courts cited precedent in support of their decisions, neither fully
addressed the legal issues, arguments, controlling regulations, guidance, and Public Notices, and
legal precedents set out by the Appellant, and both improperly relied upon viewing the facts in
light most favorable to the movant;
“Fed. R. Civ. P. 60(b) is to be given a liberal construction so as to do substantial
justice and to prevent the judgment from becoming a vehicle of injustice. This
motion is grounded in equity and exists to preserve the delicate balance between
the sanctity of final judgments and the incessant command of a court's conscience
that justice be done in light of all the facts. One important equitable consideration
is whether the litigants received a ruling on the merits of their claim. There is
much more reason for liberality in reopening a judgment when the merits of the

. "7"

33
case never have been considered than there is when the judgment comes after a
full trial on the merits. In such cases, a court must balance the policy favoring
finality in judgments against the competing policy of granting parties a hearing on
the merits of their claims. Courts also consider whether any substantial rights of
the nonmoving party have been prejudiced.” MIF Realty L.P., v. Rochester
Associates, 92 F.3d 752 (8th Cir. 1996).
This Court knows that men falsely accused and convicted of crimes they did not commit
sit in prison for years, for decades, shocked and stunned into incapacity by the blows of flawed
jurisprudence before they regain some degree of consciousness and gamer the courage to
challenge the unfairness and injustice of their wrongful convictions. There is little difference
between an innocent prison inmate serving a life sentence and a lawyer falsely accused and
wrongfully labeled morally reprehensible; an intentional, flagrant violator of the law; a dishonest,
deceitful, incompetent flimflam. Both suffer apocalyptic injury. Both are imprisoned and
profoundly crippled by the injustice.
“Injustice” is an invisible disease isolating the sufferer from the rest of the world. Like
severe sciatica, it has a cause and the possibility of a cure. For relief, however, a victim of
injustice must return to the very source of the injury for the one and only remedy. Imagine what
it has been like for a lawyer to live falsely labeled as an intentional, flagrant violator of the law; a
dishonest, deceitful, incompetent flim-flam. Imagine the horror, the shame, the humiliation a
young lawyer must have suffered showing that judgment to his new bride and her family, to his
mother, his friends and neighbors. Imagine how difficult it is for him, how much courage it
would take to return to the perpetrators of his injury for relief.
This case also presents the opportunity for this Court to decide if purely punitive

34
sanctions can be imposed without providing requisite constitutional due process protections to
Respondents in Clean Water Act civil enforcement actions. See generally; Jonathan I. Chamey,
Need for Constitutional Protections for Defendants in Civil Penalty Cases, 59 Cornell L. Rev.
478 (1974). Available at: http://scholarship.law.comell.edU/clr/vol59/iss3/5. In short, Chamey’s
article is a dated, but well researched exposition on why Brady disclosures, heightened burden of
proof, right to counsel, etc. are required to ensure a fair trial prior to criminal type punishment.
CONCLUSION
Mr. Heinrich has presented four issues, all of which warrant plenary review by this
Court.
Petitioner had the courage to stand up against bullying bureaucrats blowing smoke about
what he could do with his own private property, confident that the law was on his side. He
followed the law. He was a good steward of his property and the environment. He did not
deserve to be treated with such disrespect by the lower courts. Petitioner has nowhere else to
turn for relief.

Petitioner apologizes for his inability to produce a better Petition. He is all too well
of
aware his incompetence to practice before this Court. Although he maintains his professional
license, Mr. Heinrich does not actively practice law is any State or Federal court.
He ran out of time to complete and revise the Petition prior to its due date.

35

Because the operative facts of this case is the court record and its contents, the Petitioner
believes that the decisional process of this Court would not be significantly aided by oral
argument and he suggests that this case should be decided without oral argument.

RespectfoHySubmitted,

4
Paul A\ Neinrich,pro se
P.O. Boxl094
Star Lake, Wisconsin 54561
(630) 232-1116
stmawr@me.com
September 27, 2020

